U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 28, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: McKeever v. Barr, No. 19-307
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 5,
2019. The government's response is now due, after one extension, on November 6, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 22, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0307
MCKEEVER, STUART A.
WILLIAM P. BARR, ATTORNEY GENERAL

BRIANNE J. GOROD
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH ST., NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIANNE@THEUSCONSTITUTION.ORG
ROMAN MARTINEZ
LATHAM & WATKINS LLP
555 ELEVENTH STREET, NW
WASHINGTON, DC 20004
202-637-3377
ROMAN.MARTINEZ@LW.COM

